                                                                                          December 19, 2013
Memorandum

To:            Rhea Suh
               Assistant Secretary, Policy Management and Budget

               Michael Black
               Director, Bureau of Indian Affairs

               Dan Ashe
               Director, U.S. Fish and Wildlife Service

               Jon Jarvis
               Director, National Park Service

               Neil Kornze
               Principal Deputy Director, Bureau of Land Management


From:          Jeff Carlson
               Director, Energy Audits Unit

Subject:       Closeout Memo – Evaluation of the Department of the Interior’s Class II
               Underground Injection Well Activities
               Assignment No. CR-EV-MOA-0004-2013

         We have completed the survey phase of our evaluation pertaining to Class II underground
injection control wells, as defined by the Environmental Protection Agency (EPA), on U.S.
Department of the Interior (Department) lands. During the survey phase, we contacted four
bureaus and visited five locations in Oklahoma and California. We determined that further
efforts in this area, are not warranted. Although we are closing this assignment without issuing a
report, we have identified issues that we will discuss below.

Background

        Based upon the Safe Drinking Water Act, the EPA defines Class II injection wells as
injection wells associated with oil and gas production and cover enhanced recovery operations
(not hydraulic fracturing unless diesel fuel is used), disposal of fluids associated with oil and gas
production, and hydrocarbon storage. We were able to determine that the Bureau of Land
Management (BLM), U.S. Fish and Wildlife Service (FWS), Bureau of Indian Affairs, and the
National Parks Service have Class II wells operating on lands they manage. Most of these wells
are on BLM-managed lands, and are associated with enhanced or secondary recovery activities.



                          Office of Audits, Inspections, and Evaluations | Lakewood, CO
These wells operate in a variety of oversight regimes including EPA-led, State-led, and
Memorandums of Understanding (MOUs) between departmental bureaus and States.

Issues Identified During Survey Phase

Memoranda of Understanding
        Given the complicated nature of regulatory authorities, the Department has entered into
MOUs with various partners in order to manage Class II wells. Often these MOUs are with State
regulatory agencies such as the one entered into between BLM’s California State Office (CA
BLM) and the California Department of Conservation, Division of Oil, Gas, and Geothermal
Resources (CODOGGR). By necessity, there are significant variations among these documents.
For instance, some have stronger definitions of duties between parties that outline
responsibilities, facilitate cooperation between parties, and eliminate or at least streamline
processes for industry. We reviewed the most recent MOU between CODOGGR and CA BLM
(2012) and found that it was a significant step back from the previous MOU signed in 2008. The
current MOU merely identifies goals and instructs the parties to “begin to develop specific
plans” to implement these goals. This is in contrast to the 2008 MOU that clearly delineated
responsibilities for CODOGGR and CA BLM. While we understand that our agencies are not
fully in control of the MOU drafting process, we encourage CA BLM and other departmental
agencies to pursue MOUs in this area that have clear and enforceable responsibilities and that
allow for streamlining processes.

Misclassification in AFMSS
        During our site visit to CA BLM, we asked to visit an oil field that contained Class II
wells. We found that BLM misclassified several of the Class II wells we observed in its
Automated Fluid Mineral Support System (AFMSS). While many of the wells in question were
misclassified due to their periodic and cyclic operational status changes, we encourage BLM to
ensure that these wells are correctly classified in AFMSS thus ensuring prompt collection of
royalties and correct inclusion in BLM’s yearly inspection matrix.

Orphaned Wells on FWS Refuges
        We identified a third issue during our site visits to the Deep Fork Wildlife refuge in
Okmulgee, OK. The refuge manager and the regional oil and gas support person identified
several pieces of oil and gas infrastructure abandoned by oil and gas operations prior to the
creation of the refuge. This equipment (pump jacks, pipelines, and tank batteries) pose
significant and immediate health and environmental risks. As this equipment fell outside the
scope of our current evaluation, we believe a separate Office of Inspector General review is
necessary. That review will begin shortly.

Conclusion

        We encourage agencies to review their policies and procedures regarding Class II wells
and to address issues of classification in AFMSS or the appropriate tracking system. In addition,
BLM should pursue meaningful and substantive MOU’s that can eliminate duplicative processes.




                                                 2
       We will begin a review regarding abandoned oil and gas development infrastructure on
FWS’ lands. While two of these issues did not rise to the level of recommendations, we hope that
additional focus on these matters will result in better managing our natural resources.

       We appreciate the cooperation and assistance provided by your staff during our survey
work. If you have any questions, please call Mr. Jeff Carlson at 303-236-9107.




                                               3
